      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General


                                                                         Washington, D.C. 20201




November 1, 2010

TO:            Donald M. Berwick, M.D.
               Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Review of Terminated Drugs in the Medicare Part D Program (A-07-09-03130)


The attached final report provides the results of our review of terminated drugs in the Medicare
Part D program.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Robert A. Vito, Acting Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at Robert.Vito@oig.hhs.gov.
We look forward to receiving your final management decision within 6 months. Please refer to
report number A-07-09-03130 in all correspondence.


Attachment
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




         REVIEW OF
    TERMINATED DRUGS IN
THE MEDICARE PART D PROGRAM




                      Daniel R. Levinson
                       Inspector General

                       November 2010
                       A-07-09-03130
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                       EXECUTIVE SUMMARY

BACKGROUND

Prescription Drug Coverage

The Centers for Medicare & Medicaid Services (CMS) contracts with private prescription drug
plans and Medicare Advantage plans (collectively known as sponsors) to offer prescription drug
benefits to eligible individuals under Medicare Part D. Every time a beneficiary fills a
prescription covered under Part D, the sponsor must submit prescription drug event (PDE) data,
including drug cost and payment information, to CMS. Sponsors are required to submit final
PDE data within 6 months after the end of the coverage year.

CMS also offers prescription drug coverage through the States to eligible Medicaid beneficiaries.
Most States administer their Medicaid prescription drug programs in accordance with the
Medicaid drug rebate program. The Medicaid prescription drug program generally pays for
covered outpatient drugs if the drug manufacturers have rebate agreements with CMS and pay
rebates to the States. CMS requires manufacturers to provide a list of all covered outpatient
drugs, including their termination dates. CMS provides this information to the States on
quarterly Medicaid drug tapes.

Terminated Drugs

Pursuant to 21 CFR § 211.137, each drug must have an expiration date to ensure that the drug
meets certain standards, including strength and quality, at the time of its use. The expiration date
effectively establishes a shelf life for the drug. A drug’s termination date is defined by CMS as
(1) the expiration date of the last batch of a discontinued drug sold by the manufacturer or (2) the
date that the Food and Drug Administration (FDA) or the manufacturer withdraws a drug from
the market for health and safety reasons or orders such withdrawal. In this report, we refer to
drugs whose termination dates have passed as “terminated drugs.”

State pharmacy practice statutes and regulations generally prohibit or limit dispensing drugs after
their expiration dates. Although CMS has issued guidance to States prohibiting payment for
terminated drugs under Medicaid, no guidance or regulation prohibits payment for terminated
drugs under Medicare Part D.

OBJECTIVE

Our objective was to determine the extent to which CMS accepted PDE data submitted by
sponsors for terminated drugs.

SUMMARY OF FINDING

Of approximately $115 billion in gross drug costs included in sponsors’ PDE data for calendar
years 2006 and 2007, CMS accepted PDE data totaling $112,104,483 in gross drug costs
associated with 2,967 terminated drugs. Terminated drugs are discontinued drugs that have



                                                 i
passed their shelf life or drugs that have been pulled from the market for health or safety reasons.
Such medications could be weak, ineffective, or detrimental to beneficiaries’ health. However,
Federal regulations do not specifically prohibit coverage of terminated drugs under the Medicare
Part D program.

RECOMMENDATION

We recommend that CMS issue regulations to prohibit Medicare Part D coverage of terminated
drugs and, in the interim, publish a list of these drugs on its Web site.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS did not concur with our finding or
recommendation. CMS questioned our reliance on the termination dates reported by drug
manufacturers for use in the Medicaid program and disagreed that terminated drugs were
actually dispensed to Medicare beneficiaries. CMS also expressed its belief that the only
authoritative source of data on product expiration dates at the national drug code level is
information officially submitted by manufacturers to FDA. CMS concluded that establishing a
new regulatory requirement without more complete information from FDA would not solve the
problem.

CMS’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

The termination dates that we used were the same dates that CMS provided to States for use in
determining whether drugs were eligible for reimbursement under the Medicaid drug rebate
program. Our audit found that the PDE data that CMS accepted indicated that terminated drugs
were dispensed to Part D beneficiaries. Given that CMS directed States to reject Medicaid drug
claims on the basis of the termination dates reported by manufacturers, CMS should prohibit
Part D coverage of terminated drugs on the same basis. Accordingly, our recommendation
remains unchanged.




                                                 ii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicare Part D Prescription Drug Coverage .....................................................1
              Medicaid Prescription Drug Coverage.................................................................1
              Terminated Drugs ................................................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope ....................................................................................................................2
               Methodology ........................................................................................................2

FINDING AND RECOMMENDATION .................................................................................3

          TERMINATED DRUG COSTS ......................................................................................3

          POTENTIAL QUALITY-OF-CARE IMPLICATIONS .................................................4

          RECOMMENDATION ...................................................................................................4

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ....................4

          OFFICE OF INSPECTOR GENERAL RESPONSE ......................................................5

APPENDIX

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                                    iii
                                               INTRODUCTION

BACKGROUND

Medicare Part D Prescription Drug Coverage

Title I of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (MMA)
amended Title XVIII of the Social Security Act (the Act) by establishing the Medicare Part D
prescription drug benefit. 1 Under Part D, which began January 1, 2006, individuals entitled to
benefits under Part A or enrolled in Part B may obtain drug coverage. The Centers for Medicare
& Medicaid Services (CMS), which administers Medicare, contracts with private prescription
drug plans and Medicare Advantage plans (collectively known as sponsors) to offer prescription
drug benefits to eligible individuals.

Every time a beneficiary fills a prescription covered under Part D, the sponsor must submit
prescription drug event (PDE) data to CMS. PDE data include drug cost and payment
information to enable CMS to administer the Part D benefit. Pursuant to 42 CFR § 423.343(c)(1),
sponsors must submit final PDE data to CMS within 6 months after the end of the coverage year.
For calendar years 2006 and 2007, sponsors submitted final PDE data totaling approximately
$115 billion in gross drug costs. CMS’s PDE Instructions: Requirements for Submitting
Prescription Drug Event Data, section 7.2.3, define gross drug costs as the sum of the following
PDE payment fields: covered plan-paid amount, noncovered plan-paid amount, patient-pay
amount, low-income cost-sharing payment, other true out-of-pocket costs, and patient liability
reduction as a result of another payer amount.

Sections 1860D-14 and 15 of the Act provide that CMS pay sponsors for Part D benefits
prospectively based in part on information in the sponsors’ approved annual bids. After the close
of the coverage year, CMS is responsible for reconciling the prospective payments with the
actual costs incurred by sponsors and for determining the amount that each sponsor will owe to
or receive from Medicare for the plan year. CMS’s reconciliations are based on sponsors’ final
PDE data.

Medicaid Prescription Drug Coverage

In addition to offering Part D prescription drug coverage to Medicare beneficiaries, CMS offers
drug coverage through the States to eligible Medicaid beneficiaries pursuant to Title XIX of the
Act. Most States administer their Medicaid prescription drug programs in accordance with the
Medicaid drug rebate program. 2 The Medicaid prescription drug program generally pays for
covered outpatient drugs if the drug manufacturers have rebate agreements with CMS and pay
rebates to the States. CMS requires manufacturers to provide a list of all covered outpatient
drugs, including their termination dates. CMS provides this information to the States on
quarterly Medicaid drug tapes.

1
    P.L. No. 108-173 § 101, the Act, § 1860D-1(a), 42 U.S.C. § 1395w-101(a).
2
 The Omnibus Budget Reconciliation Act of 1990 established the Medicaid drug rebate program effective
January 1, 1991. The program is set forth in section 1927 of the Act.


                                                         1
Terminated Drugs

Pursuant to 21 CFR § 211.137, each drug must have an expiration date to ensure that the drug
meets certain standards, including strength and quality, at the time of its use. The expiration date
effectively establishes a shelf life for the drug. A drug’s termination date is defined by CMS as
(1) the expiration date of the last batch of a discontinued drug sold by the manufacturer or (2) the
date that the Food and Drug Administration (FDA) or the manufacturer withdraws a drug from
the market for health and safety reasons or orders such withdrawal. 3 In this report, we refer to
drugs whose termination dates have passed as “terminated drugs.”

State pharmacy practice statutes and regulations generally prohibit or limit dispensing drugs after
their expiration dates. Federal regulations provide that Part D plans must comply with minimum
State pharmacy practice standards (42 CFR § 423.153(c)(1)). In addition, the Medicare
Prescription Drug Benefit Manual, Pub. No. 100-18, § 70.1.3, states that a pharmacy’s act of
dispensing expired drugs constitutes fraud, waste, or abuse.

Although CMS has issued guidance to States prohibiting payment for terminated drugs under
Medicaid, no guidance or regulation prohibits payment for terminated drugs under Medicare
Part D.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine the extent to which CMS accepted PDE data submitted by
sponsors for terminated drugs.

Scope

The audit scope covered approximately $115 billion in gross drugs costs reflected in sponsors’
final PDE data for calendar years 2006 and 2007.

The objective of our audit did not require us to review CMS’s internal control structure. We did
not review the accuracy or completeness of the PDE data.

We conducted our audit from August 2008 to February 2009.

Methodology

To accomplish our objective, we took the following steps:

    •   We reviewed applicable Federal laws, regulations, and guidance.

    •   We interviewed CMS officials responsible for administering the Part D program.
3
 Medicaid Drug Rebate Operational Training Guide, page F7 (Sept. 2001); Medicaid Drug Rebate Program
Release No. 19, page 5.


                                                     2
       •   We obtained from CMS a list of drugs and their termination dates reported by the drug
           manufacturers that participated in the Medicaid drug rebate program. We then obtained
           the PDE data for all drugs that were dispensed after their termination dates.

       •   For the 12 terminated drugs with the highest gross drug costs included in sponsors’ PDE
           data, we confirmed the accuracy of the termination dates with the drug manufacturers.
           These drugs represented 52 percent of the total Part D gross drug costs associated with
           terminated drugs.

       •   We shared the PDE data associated with terminated drugs with CMS officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                                FINDING AND RECOMMENDATION

Of approximately $115 billion in gross drug costs included in sponsors’ PDE data for calendar
years 2006 and 2007, CMS accepted PDE data totaling $112,104,483 in gross drug costs
associated with 2,967 terminated drugs. 4 Terminated drugs are discontinued drugs that have
passed their shelf life or drugs that have been pulled from the market for health or safety reasons.
Such medications could be weak, ineffective, or detrimental to beneficiaries’ health. However,
Federal regulations do not specifically prohibit coverage of terminated drugs under the Medicare
Part D program.

TERMINATED DRUG COSTS

Pursuant to the provisions of the MMA, a drug must meet the definition of a Part D drug to be
covered by the Part D program. 5 This definition generally requires that FDA approve the drug.
FDA requires that drug products undergo testing to assess their stability. The results of stability
testing are used in determining appropriate storage conditions and expiration dates. Federal
regulations (21 CFR § 211.137) require that a drug product meet applicable standards of identity,
strength, quality, and purity at the time of use and bear the expiration date determined during
stability testing.

For calendar years 2006 and 2007, CMS accepted sponsors’ PDE data totaling $112,104,483 in
gross drug costs for drugs that were dispensed after their termination dates. For example, one
sponsor submitted a PDE record for the drug Cozaar (national drug code (NDC)


4
 Of the 2,967 terminated drugs that we identified, 17 drugs totaling $3,354,998 in gross drug costs were also
classified as less than effective. We are addressing less-than-effective drugs in another report (A-07-09-04138).
5
    The Act, § 1860D-2(e).



                                                          3
00006-0952-58). 6 This drug was dispensed on November 1, 2006, with a gross drug cost of
$141. However, the drug manufacturer had reported to CMS that the drug was discontinued and
that the expiration date was August 31, 2006. Thus, on the date that it was dispensed, the drug
had passed its shelf life. For calendar years 2006 and 2007, CMS accepted PDE data totaling
$11,621,242 in gross drug costs for this drug after its termination date.

Federal regulations do not specifically prohibit coverage of terminated drugs under the Part D
program.

POTENTIAL QUALITY-OF-CARE IMPLICATIONS

Beneficiaries who are prescribed and dispensed terminated drugs are taking drugs that by
definition have expired or have been pulled from the market for health or safety reasons. Such
medications could be weak, ineffective, or detrimental to beneficiaries’ health.

RECOMMENDATION

We recommend that CMS issue regulations to prohibit Medicare Part D coverage of terminated
drugs and, in the interim, publish a list of these drugs on its Web site.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS did not concur with our finding or
recommendation. CMS questioned our reliance on the termination dates reported by drug
manufacturers for use in the Medicaid program and said that these dates are collected to establish
“the last date that rebates will be due to the Medicaid program. In discussions with Medicaid
staff we have learned that these dates are not infrequently subject to change ....” CMS also
expressed its belief that the only authoritative source of data on product expiration dates at the
NDC level is data officially submitted by manufacturers to FDA.

In addition, CMS disagreed that terminated drugs were actually dispensed to Medicare
beneficiaries and said that our report more likely indicated imprecise pharmacy billing practices.
CMS explained that pharmacies bill for an NDC that does not always precisely correlate with the
actual product being dispensed.

CMS stated that if FDA made information regarding terminated drugs transparent and widely
available, pharmacies would incorporate appropriate edits into their systems, payers would reject
claims for these drugs, and CMS could establish edits that would reject PDE claims for these
drugs. CMS concluded that establishing a new regulatory requirement without more complete
information from FDA would not solve the problem.

CMS’s comments are included in their entirety as the Appendix.




6
    An NDC is a unique, three-segment identification number.


                                                         4
OFFICE OF INSPECTOR GENERAL RESPONSE

The termination dates that we used were the same dates that CMS provided to States for use in
determining whether drugs were eligible for reimbursement under the Medicaid drug rebate
program. In accordance with Medicaid Drug Rebate Program Release No. 19, States must
“assure that claims submitted by pharmacists are not for drugs dispensed after the termination
date. These should be rejected as invalid since these drugs cannot be dispensed after this date.”

Our audit found that the PDE data that CMS accepted indicated that terminated drugs were
dispensed to Part D beneficiaries. We acknowledge that a pharmacy could potentially bill for an
NDC that does not precisely correlate with the product dispensed. However, when a pharmacy
bills for a terminated drug, CMS should reject the PDE data, as well as the sponsor’s payment,
for that drug. Regardless of pharmacy billing practices, CMS is responsible for ensuring that
drugs dispensed to Part D beneficiaries are safe and effective.

Although FDA plays an important role in drug safety, it does not obtain termination dates from
drug manufacturers or track expiration dates. Given that CMS directed States to reject Medicaid
drug claims on the basis of the termination dates reported by manufacturers, CMS should
prohibit Part D coverage of terminated drugs on the same basis. Accordingly, our
recommendation remains unchanged.




                                                5
APPENDIX
                                                                                                                       Page 1 0[2


APPENDIX: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS 




        DEPARTMENT OF HEALTH & HUMAN SERVICES                                               Centers lor Medicare & Medicaid Services

                                                                                        OJ         4)
                                                                                         AQ11!inistrator
                                                                   2010 JUN 25              Washington , DC 20201
                                                                                       P11 5; I,::
                                                                  L, ,"
                                                                          "   ,
                                                                              GfNf'r//j (
     DATE:
                     JUN 25 2010
     TO:             Daniel R. Levinson
                     Inspe~t
                         f>G~~
     FROM:        ~
                  Acting A
                                 "enner
                                  inistrator and Chief Operating Officer

     SUBJECT: 	 Office of Inspector General (OIG) Draft Report: "Review of Terminated Drugs in
                the Medicare Part D Program" (A-07-09-03130)


     Thank you for the opportunity to review and comment on this OlG draft report reviewing
     " terminated drugs" in the Medicare Part 0 Program. The Centers for Medicare & Medicaid
     Services (CMS) appreciates the OlG's concern for ensuring that Medicare beneficiaries are not
     receiving drugs that could be weak, ineffective or detrimental to beneficiaries' health. We
     strongly agree that we do not want Medicare beneficiaries receiving expired or outdated drugs.
     As noted in the report, States already regulate pharmacy practice and generally prohibit or limit
     dispensing of expired drugs. We rarely see evidence to indicate that pharmacies are dispensing
     outdated drugs to Medicare beneficiaries and we believe that pharmacists generally adhere to the
     practice of dispensing drugs that are not outdated.

     We note that the data source used in the report methodology is likely flawed, and cannot be
     relied upon as a proxy for identifying the dispensing of outdated products. The data submitted
     by manufacturers to the Medicaid program on "terminated drugs", i.e. , the reported expiration
     date of the last lot of drugs produced, is collected for the purpose of establishing the last date that
     rebates will be due to the Medicaid program. In discussions with Medicaid staff we have learned
     that these dates are not infrequently subject to change, in certain cases by more than a year. We
     believe that the only authoritative source of data on final product expiration dates at the national
     drug code (NOC) level is data officially submitted by manufacturers to the Food and Drug
     Administration (FDA). [fthis information were made publicly available, all parties that utilize
     NDC data - commercial databases, pharmacies and pharmacy software vendors, plan benefit
     managers and other Part 0 sponsor processors, and CMS systems - could consistently apply
     edits to any terminated codes.

     The CMS does not concur with the OIG's interpretation that their study supports the finding that
     terminated drugs were actually dispensed to Medicare beneficiaries, and instead believes the
     report most likely supports a finding of imprecise pharmacy billing practices based on lack of
     timely access to updated coding data. The OIG report uses a finding of pharmacies billing for
     outdated I I-digit NDC as a proxy for actuall y outdated drug products being dispensed at the
     pharmacy counter. In actuality, in the constantly changing world ofNDCs, real-time electronic
                                                                                                   Page 2 0[2




Page 2- Daniel R. Levinson


phannacy billing with II-digit NDCs does not always precisely correlate with the actual product
being dispensed. For example, it is not uncommon for a pharmacy to bill using an NDC for the
correct drug product but the incorrect package size. The Cozaar example offered by the OIG
represents a classic situation where the manufacturer discontinued one package size (100 tablet)
and created a new NOC for the new package size (90 tablet). Only the last 2 digits on the 11­
digit Cozaar NDC differ. In this example, the billing of the terminated NDC most likely
represented the pharmacies failure to update the precise NDC in their billing systems to reflect
the new package size and not that the pharmacy dispensed outdated drugs. Although ideally,
with timely access to updated data, pharmacies would always use the exact NDC to match the
product dispensed to the patient, it is important to recognize that such discrepancies do not
support a finding that outdated drugs were dispensed.

While w e disagree that the OIG report supports the finding that pharmacies dispensed, and
Medicare beneficiaries received, outdated drugs, we recognize that pharmacies should be billing
with the correct NDCs and believe that transparent data on outdated NDCs could assist with
eliminating the use of outdated NDCs on pharmacy claims transactions and any potential risk of
payment for actual outdated drugs. We believe this information must be provided by the FDA so
that commercial databases, pharmacies, payers and CMS will have the same access to the same
authoritative information.

OIG Recommendation

CMS issue regulations to prohibit Medicare Part D coverage of terminated drugs and, in the
interim, publish a list of these drugs on its Web site.

CMS Recommendation

The CMS does not concur with this recommendation. For the reasons discussed above, we
believe that a permanent solution requires the FDA to make such information on drug products
transparent and widely available. If this information is available from the FDA, we believe that
pharmacies will incorporate appropriate edits in their systems, payers will reject claims for
outdated NDCs and CMS could establish prescription drug event (PDE) reject edits for the same
NOCs. Establishing a new regulatory requirement without the availability of more complete
information from the FDA will not solve the issue but could create more confusion and
inconsistencies. Furthermore, it would not be appropriate for CMS to publish a program-specific
list of terminated drug NDCs because the FDA, not CMS, is the authoritative sourc.that collects
and should make this information available to the public.

Thank you for the opportunity to review and comment on the draft report.
